BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

R e cords

CERTIFICATE OF SERVICE
I, Donn·'.l J. WoU, her eby certii3r t h a t 1 u nb un d
copy and 40 O})i · s oJ the foregoing Amicus Cu.riae
Brief f be American Cente r for Law & Justice in
S 1ppod of P itioners in 19-454, Donald J. T rump,
P resident of the Unded States, et aL 1:J. Pennsylvania,
el a l. , were sen via T wo Day Service to h e U.S.
S uprem
ourt, and 3 copi s wer e e nt via Tw Day
Service a nd e-m ail to t he following pa1·Lies listed
below, this 6th day of November, 2019:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
Supreme CtBriefs@USDOJ.gov

Counsel for Petitioners
Michael J. Fischer
Pennsylvania Office of Attorney General
1600 Arch St.
Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A. KERSHNER, J.D.

Glenn J. Moramarco
Counsel for the State of New Jersey
Office of Attorney General of New Jersey
Department of Law & Public Safety
25 Market Street
Richard J. Hughes Complex
Trenton, NJ 08625
(609) 376-3235
glenn.moramarco@law.njoag.gov
Mark Leonard Rienzi
Counsel for Little Sisters of the Poor Saints Peter and
Paul Home
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw .org
Counsel for Respondents
Jay Alan Sekulow
Counsel of Record
Stuart J. Roth
Walter M. Weber
Jordan Sekulow
American Center for Law & Justice
201 Maryland Ave., N.E.
Washington, D.C. 20002
(202) 546-8890
sekulow@aclj.org

Francis J. Manion
Geoffrey R. Surtees
American Center for Law & Justice
P.O. Box 60
New Hope, Kentucky 40052
(502) 549-7020
Edward L. White III
Erik M. Zimmerman
American Center for Law & Justice
3001 Plymouth Road, Suite 203
Ann Arbor, Michigan 48105
(734) 680-8007

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 6, 2019.

rO

DonnaJ.~f
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

